U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

April 26, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Kansas Natural Resource Coalition v. Department of Interior,
No. 20-1195
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on February 25,
2021. The government’s response is now due, after one extension, on April 30, 2021. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including May 14, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner consents to this further extension.
Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General
cc:

See Attached Service List

20-1195
KANSAS NATURAL RESOURCE COALITION
DEPARTMENT OF THE INTERIOR, ET AL.

CHRISTINE CARLETTA
KING & SPALDING LLP
1700 PENNSYLVANIA AVE, NW
WASHINGTON, DC 20006
CCARLETTA@KSLAW.COM
JAY R. CARSON
THE BUCKEYE INSTITUTE
,
J.CARSON@BUCKEYEINSTITUTE.ORG
MEREDITH DI LIBERTO
JUDICIAL WATCH
425 THIRD STREET, S.W.
SUITE 800
WASHINGTON, DC 20024
202-646-5172
MDILIBERTO@JUDICIALWATCH.ORG
KENNETH W. ESTES
CALIHAN LAW FIRM
P.O. BOX 1016
GARDEN CITY, KS 67846
620-276-2381
KESTES@CALIHANLAWFIRM.COM
JEFFREY W. MCCOY
PACIFIC LEGAL FOUNDATION
3100 CLARENDON BLVD.
SUITE 610
ARLINGTON, VA 22201-5330
916-419-7111
JMCCOY@PACIFICLEGAL.ORG

JONATHAN CALVIN WOOD
PACIFIC LEGAL FOUNDATION
3100 CLARENDON BLVD.
SUITE 610
ARLINGTON, VA 22201-5330
202-888-6881
JWOOD@PACIFICLEGAL.ORG

